APPENDIX

A

JUDGMENT OF DENIAL FROM NINTH CIRCUIT
COURT OF APPEALS ON THE WRIT OF
MANDAMUS

I

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

April 09, 2020

. Ms. Jeannette Clack
Western District of Texas, El Paso
United States District Court
525 Magoffin Avenue
Room 108
El Paso, TX 79901-0000
No. 19-50518

In re: Marco Blancas
USDC No. 3:98-CR-1194-9

Dear Ms. Clack,
Enclosed is a copy of the judgment issued as the mandate.

Sincerely,

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50518

In re: MARCO ANTONIO BLANCAS,
Petitioner.

Petition for a Writ of Mandamus to
the United States District Court
for the Western District of Texas

Before SMITH, DENNIS and DUNCAN, Circuit Judges.
PER CURIAM:
Marco Blancas, federal prisoner #11644-180, filed a pro se petition for
writ of mandamus and a memorandum in support. Blancas was convicted and
sentenced inr2^^^^^^|iid.~hot file an appeal. His 28 U.S.C.^S^^^^^^rm to
vacate, set aside, or correct sentence was dismissed with prejudice.
Blancas subsequently filed a motion for a reduction of sentence under
Federal Rule o.f Criminal Procedure 351b 1 and a motion to compelithe govern­
ment eithe35(b) motion or to file its own^^je^^Tb^iiption.
In those _motidrL^^^^mplaine~d that the government had breached^its postplea agreement to’move for a reduction of his sentenceT The "district court
_

denied both motions on March 27, 2018. On May 4. 2018,_Blancas.filed_a

No. 19-50518
motion, stamped as received on May 7, 2018, asking the district court to recon­
sider its denial of his motion to compel. See Houston u. Lack, 487 IJ.S. 266.
270-72 (1988) (holding that pleadings filed by a pro se prisoner are deemed
filed when presented to prison authorities for mailing). The court denied the
motion on July 16, 2019. Blancas filed a second motion for reconsideration,
which the court denied on August 23, 2019.
“Mandamus is an extraordinary remedy that should be granted only in
the clearest and most compelling cases.” In re Willy, 831 F.2d 545. 549 (5th
Cir. 1987). A party seeking mandamus relief must show both that he has no
other adequate means to obtain the requested relief and that he has a “clear
and indisputable” right to the writ. Id. (internal quotation marks and citation
omitted). Mandamus is not a substitute for appeal. Id. “Where an interest
can be vindicated through direct appeal after a final judgment, this court will
ordinarily not grant a writ of mandamus.” Campanioni v. Barr, 962 F.2d 461.
464 (5th Cir. 1992).
In his mandamus petition, Blancas complains of delay in the district
court’s adjudication of his first motion for reconsideration. He asks us to com­
pel the court to rule on that motion. In light of the July 16, 2019, order denying
that motion, the request for mandamus rehef is moot.
Blancasl^filed his memorandum in support of his petition- for a writ of
mandamus after the district court had denied his second motion for reconsid­
eration. In his memorandum, Blancas reiterates his claim that the govern­
ment breached his post-plea agreement; he asserts, in light of the alleged
-

breach, that hi|Lguilty plea was not knowingly and voluntarily.qntered. Those
complaints dq^japt_warrant mandamus rehef. Blancas’s. appropriate remedy
was to raise those issues on direct appeal and, if necessary, in a § 2255 motion.
He is not entitled to a writ of mandamus just because-he failed-to pursue-his
2

No. 19-50518
appellate remedy and did not raise those claims in his § 2255 motion.
Finally, Blancas contends that the district court abused its discretion by
denying his motion to compel and erred by denying his motions for reconsider­
ation of that decision. Blancas can obtain or could have obtained review of
those decisions by filing a timely appeal. He is not entitled to mandamus relief.
See Campanioni, 962 F.2d at 464.
Although Blancas has not filed notices of appeal from the orders, a man­
damus petition may be construed as a timely notice of appeal if it clearly evin­
ces an intent to appeal and is filed within the time prescribed by Federal Rule
of Appellate Procedure 4. See Yates v. Mobile Cty. Pers. Bd., 658 F.2d 298. 299
(5th Cir. 1981); FED. R. Crtm. P. 4(ainVBU

Blancas’s memorandum in

support of his petition expresses his intent to appeal the orders. Although the *
certificate of service is dated September 13, 2019, Blancas signed the document
on September 19, 2019, and could not have submitted it to prison authorities
for mailing before that date. FED. R. App. P, 4fcV1'). It was date-stamped as
received in this court on September 30, 2019.
The memorandum was not filed within 60 days from the March 27, 2018,
order denying Blancas’s motion to compel or the July 16, 2019, order denying
his first motion for reconsideration. It was, however, filed within 60 days of
*“ti j ■ mi

the Augusffipj3jg2&i.9. order denying Blancas’s second molaS^forreconsideration. Although we offer no opinion on the merits of any such motion or appeal,
we construe Blancas’s memorandum as a notice of appeal from that decision.
When a notice of appeal “is mistakenly filed in the court of-appeals, the clerk
*■»*

Blaiieas’s assertion that the government breached the postunea agreement would
<***jSambit ol a § 2255 motion. See United States v. Haves^^fV.^A 349. 352 (5th
fall within
Cir. 2008) (observing that a § 2255 proceeding is civil in nature). Because the United States
is a party in this case, Blancas had 60 days to file a timely notice of appeal. See Fed. R. Crtm.
P: 46DUFRV............~~
.....
—----------------------

3

No. 19-50518
of that court must indicate on the notice the date when it was received and
send it to the district clerk. The notice is then considered filed in the district
court on the date so noted.” FED. R. APP. P. 4YdV
The petition for a writ of mandamus is DENIED. The Clerk is directed
to transmit Blancas’s memorandum in support of his petition for writ of man­
damus to the district court to be filed as a notice of appeal from its denial of his
second motion for reconsideration.

•—

4

-S-—i

.

APPENDIX B
JUDGMENT AND COMMITMENT

APPENDIX B
JUDGMENT AND COMMITMENT

T*.* A

*•

'.~mS

' ' V*

dta

E£Tv»~

sr*'
TIL'

4.

«T: 5*3

'

1

nont in a Criminal Case

AO 245 S (Rev, 4/91){W,D.Tx. rev.) Sheet 1 • .

UNITED STATES DISTRICT COURT
Western District of Texas
UNITED STATES OF AMERICA

FILED

n,

M10: 30

*EST tSN oisAflf^teiar
Case Number £P-98-CR-lB|

v.

MARCO ANTONIO BLANCAS
Defendant.
i

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1, 1987)
I

i

The defendant, MARCO ANTONIO BLANCAS, was represented by Joseph (Sib) Abraham and
Kathleen Salome Smith.
On motion of the United States the Court has dismissed the indictment and the superseding indictment.
The defendant pled guilty to an information on August 9, 2002. Accordingly, the defendant is adjudged guilty of
such count, involving the following offense:

Title & Section

Nature of Offense

Date of Offense

18 U.S.C. 1203

Hostage taking

December 1997

Count
Number(s)
1

As pronounced on August 9, 2002, the defendant is sentenced as provided in pages 2 through 3 of this Judgment.
The sentence is imposed pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant shall pay to the United States a special assessment of $ 100.00, which shall be due
immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.
it is further ordered that the defendant shail notify the United States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
Judgment are fully paid.
Signed this the

JH. P>

day of August, 2002

fDAVID ajflONES^
United Estates District Judge
\ ,

i::

'

-

Cl 51)11/
Defendant's Date of Birth: 2-2C65 ^

, O 2 I 2002
CC.M, EL PASO, TX

Q)
Isj/a

iV'-

i1-

ZQ.
b'li

i
AO 245 s'(Rev. A/SlHW.D.Tx. Rev.) Sheet 2 -

.sonment

Judgment-Page 2 of 3
Defendant: MARCO ANTONIO BLANCAS
Case Number: EP-98-CR-1194-D3 (9!
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
term of three hundred (3001 months.
The Court makes the following recommendations to the Bureau of Prisons: that the defendant.be committed at
F.C.I., Beaumont, Texas and that the defendant be allowed to participate in the Comprehensive Drug Treatment Program
at the designated institution.

RETURN
I have executed this Judgment as follows:

1 /ujn.

Defendant delivered on
at

'a. m/H'J'

r yi'

7 /

to
, with a certmed'choy of tois Judgment.

YD’

ynuedTStfltHs Marshat

By

' UM

AO 245 S (Rev. 10/90)(W,D.TX. rev.) Sheet 3 - t

vised Release

Judgment-Page 3 of 3
Defen/jant: MARCO ANTONIO BLANCAS
i

Case Number: EP-98-CR-1194-DB (9)
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of five (5) years.
While on supervised release, the defendant shall comply with the standard conditions that have been adopted
by this court (set forth below):
STANDARD CONDITIONS OF SUPERVISION
While the defendant is on supervised release pursuant to this Judgment:
1)
2)
3)

4)
5)
6)

7!
8)
9)
10)
11)
12)
13)
14)
15!
16)
17)
18)
19)

The defendant shall not commit another federal, state, or local crime during the term of supervision.
The defendant shall not illegally possess a controlled substance.
If the judgment imposed a fire or a restitution obligation, it shall be a condition of supervision that the defendant pay
any such fine or restitution that remains unpaid at the commencement of the term of supervision in accordance with
a schedule to be approved by the Court. In any case, the defendant shall cooperate with the Probation Officer in
meeting any financial obligations.
In supervised release cases only, the defendant shall report in person to the probation office in the district to which
the defendant is released within 72 hours of release from the custody of the Bureau of Prisons.
If convicted of a felony, the defendant shall not posses a firearm as defined in 18 U.S.C. §921.
For offenses committed on or after September 13, 1994, the defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment or
placement on probation and 3t least two periodic drug tests thereafter, as directed by the Probation Officer.
The above drug testing condit or. may be suspended based on the Court's determination that the defendant poses a
low risk of future substance ottuse.
The defendant shall not leave the judicial district without the permission of the Court or Probation Officer.
The defendant shall reccrt to the P'coation Officer and shall submit a truthful and complete written report within the
first five days of each month.
The defendant shall answer truthfully all inquires by the Probation Officer and follow the Instructions of the Probation
Officer.
The defendant shall support his cr her dependents and meet other family responsibilities.
The defendant shall work regular / at a lawful occupation unless excused by the Probation Officer for schooling, training
or other acceptable reasons.
The defendant shall r. tify the Probation Officer ten days prior to any change in residence or employment.
The defendant shall re'ra.n f-.-n excessive use of alcohol.
The defendant shall ret fr.q^ent places where controlled substances are illegally sold, used, distributed, or
administered.
The defendant shall rm: assoc.ate with any persons engaged in criminal activity, and shall not associate with any
person convicted of a felony unless granted permission to do so by the Probation Officer.
The defendant shall permit a P-ooaLon Officer to visit him or her at any time at home or elsewhere and shall permit
confiscation of any contraband observed in plain view of the Probation Officer.
The defendant shall reply the "roc.- on Officer within seventy-two hours of being arrested or questioned by a law
enforcement officer.
The defendant shall no: enter into any agreement to act as an informer or special agent of a law enforcement agency
without the permission cf the Cc
As directed by the Probation :if csr, the defendant shall notify third parties of risks that may be occasioned by the
defendant's criminal r.j,.c.re cr oe'oor.al history or characteristics, and shall permit the Probation Officer to make such
notifications and to confirm the defendant's compliance with such notification requirement.

¥

